March 2009
Report No. AUD-09-006


Material Loss Review of Integrity Bank,
Alpharetta, Georgia




            AUDIT REPORT
                                           Audit No. AUD-09-006                                                                          March 2009

                                           Material Loss Review of Integrity Bank,
                                           Alpharetta, Georgia
  Federal Deposit Insurance Corporation
                                           Audit Results
 Why We Did The Audit
                                           Integrity failed primarily due to management’s aggressive pursuit of asset growth concentrating in
 As required by section 38(k) of the       higher-risk ADC loans without adequate controls. Integrity lacked adequate loan underwriting and other
 Federal Deposit Insurance (FDI) Act,      loan portfolio and risk management controls and liquidity management practices to support its growth
 the Office of Inspector General (OIG)     strategy. Resulting losses severely eroded Integrity’s capital, leading to its failure and material loss to
 conducted a material loss review of       the DIF. Specifically:
 the failure of Integrity Bank
 (Integrity), Alpharetta, Georgia. On      Management. Integrity’s BOD did not ensure that bank management identified, measured, monitored,
 August 29, 2008, the Georgia              and controlled the risk of the institution’s activities. In addition, the BOD did not ensure the
 Department of Banking and Finance         implementation of corrective actions in response to bank examinations and audit recommendations. In
 (DBF) closed the institution and          particular, Integrity did not provide adequate controls over the lending function, including credit
 named the FDIC as receiver. On            underwriting, credit approval, appraisals, loan documentation, and problem loan recognition. By the
 September 17, 2008, the FDIC              end of 2007, Integrity’s management had been replaced, and new management was making an effort to
 notified the OIG that Integrity’s total   address the bank’s problems; however, new management was not able to correct the condition of the
 assets at closing were $1.045 billion,    bank sufficiently to prevent failure.
 with a material loss to the Deposit
 Insurance Fund (DIF) estimated at         Asset Quality. Integrity concentrated its lending in ADC loans in rapidly growing markets, including
 $295 million.                             out-of-territory markets, and concentrated its loans to individuals to an extent that exceeded state
                                           lending limits. While doing so, Integrity did not follow sound loan underwriting standards and
 The audit objectives were to              administration practices, including: (1) adequately supporting loan presentations, (2) recognizing
 (1) determine the causes of the           problem assets in a timely manner, (3) effectively classifying loans, (4) establishing a methodology in
 financial institution’s failure and       compliance with interagency policy for determining the adequacy of the allowance for loan and lease
 resulting material loss to the DIF and    losses, and (5) establishing controls over the use of interest reserves. In addition, Integrity did not
 (2) evaluate the FDIC’s supervision of    perform global cash flow analyses for large borrowers to establish a comprehensive picture of bank
 the institution, including                debt. As asset quality declined and losses were recognized, earnings and capital were eroded.
 implementation of the prompt
 corrective action (PCA) provisions of     Liquidity. Integrity relied on volatile sources of funding, such as brokered deposits and Federal Home
 section 38.                               Loan Bank advances, to support its asset growth. In 2008, these sources of funding were not readily
                                           available as Integrity’s condition deteriorated. Although new bank management was closely monitoring
 Background                                liquidity, it was not able to obtain sufficient funds on reasonable terms to meet liquidity needs.

 Integrity was a state-chartered           Supervision. The FDIC and DBF conducted timely examinations of Integrity. The FDIC also provided
 nonmember bank that was established       oversight through its off-site monitoring process. In February 2008, the FDIC issued a Cease and Desist
 and insured on November 1, 2000.          Order (C&D) and conducted a visitation to review actions taken as a result of the C&D. Further, in July
 Integrity was headquartered in            2008 and again in August 2008, the FDIC used its authority under the PCA provisions of the FDI Act to
 Alpharetta, Georgia, and, at closing,     issue PCA Directives when Integrity became undercapitalized and then significantly undercapitalized.
 had five other branches in Georgia.       The FDIC has authority to take a wide range of supervisory actions. In the case of Integrity, however,
 Integrity was closely held by Integrity   supervisory actions were not timely and effective in addressing the bank’s most significant problems.
 Bancshares, Inc., which had no other
 subsidiaries. Integrity provided full-    The FDIC has taken steps to improve its supervisory oversight of financial institutions that have
 service commercial banking activities.    concentrations in ADC loans and use interest reserves. However, examiners noted deficiencies in
                                           Integrity’s asset quality in the 2005 and 2006 examinations that should have warranted greater concern.
 Integrity’s loan portfolio was            Specifically, these examinations identified significant risks in Integrity’s loan portfolio, including a high
 concentrated in acquisition,              concentration in ADC and individual loans; out-of-territory lending; and loan administration issues that
 development, and construction (ADC)       were not corrected in subsequent examinations as Integrity’s risk profile was increasing. Greater
 loans. The federal financial              concern regarding Integrity’s loan administration and declining asset quality could have led to elevated
 regulatory agencies have recognized       supervisory attention and earlier supervisory action.
 the increased risk that ADC loans
 present to financial institutions and     The FDIC OIG plans to issue a series of summary reports on the material loss reviews it is conducting
 issued guidance in December 2006 on       and will make appropriate recommendations related to the failure of Integrity and other FDIC-
 a risk management framework that          supervised banks at that time.
 effectively identifies, measures,
 monitors, and controls ADC                Management Response
 concentration risk. That framework
 should include effective oversight by     The Division of Supervision and Consumer Protection (DSC) provided a written response to the draft
 bank management, including the            report. DSC agreed with the OIG’s conclusions regarding the causes of Integrity’s failure and the
 board of directors (BOD) and senior       resulting material loss. DSC noted that facts regarding Integrity’s largest borrowing relationship and
 executives; and sound loan                significant control weaknesses in the loan approval processes did not come to light until the 2007
 underwriting; credit administration;      examination. However, in our view, greater concern for Integrity’s loan administration and
 and portfolio management practices.       underwriting weaknesses identified in the 2005 and 2006 examinations could have led to earlier
                                           supervisory action regarding Integrity’s borrowing relationships.
To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                    Page

BACKGROUND                                                                      2

RESULTS IN BRIEF                                                                4

MANAGEMENT                                                                      5
  Ineffective BOD and Management                                                5
  Risk Management                                                               6
  Inadequate Actions for Apparent Violations of Regulatory Requirements         7
  Regulatory Supervision Related to Management                                  8

ASSET QUALITY                                                                    9
  Examiner Concerns and Recommendations Regarding Asset Quality                 10
  Concentration in CRE and ADC Loans                                            11
  Interest Reserves                                                             12
  Allowance for Loan and Lease Losses                                           13
  Regulatory Supervision Related to Asset Quality                               13

LIQUIDITY                                                                       16
  Examiner Concerns and Recommendations Regarding Liquidity                     16
  Lack of an Adequate CLP                                                       19
  Regulatory Supervision Related to Liquidity                                   21

IMPLEMENTATION OF PCA                                                           23

CORPORATION COMMENTS                                                            24
APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                         25
  2. GLOSSARY OF TERMS                                                          28
  3. CORPORATION COMMENTS                                                       29
  4. ACRONYMS IN THE REPORT                                                     32
TABLES
   1. Financial Condition of Integrity                                          3
   2. Examples of Examiner Comments and Recommendations Regarding Integrity’s   6
        BOD and Management Performance
   3. Integrity’s Asset Classifications and ALLL                                 9
   4. Examples of Examiner Comments and Recommendations Regarding Integrity’s   10
        Asset Quality
   5. Integrity’s Loan Concentrations and Classifications                       11
   6. Integrity’s Non-Core Funding Sources                                      16
   7. Dependency Ratios as Calculated by Integrity and Examiners                17
   8. Examples of Examiner Comments and Recommendations Regarding Integrity’s   18
        Liquidity
   9. Brokered Deposit Waiver Requests Submitted by Integrity                   21
  10. Integrity Capital Stock Issuances                                         23
Contents                           Page

FIGURE
  Integrity’s Key CAMELS Ratings      3
Federal Deposit Insurance Corporation                                                               Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                Office of Inspector General


DATE:                                     March 17, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Integrity Bank
                                          Alpharetta, Georgia
                                          (Report No. AUD-09-006)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of Integrity
Bank (Integrity), Alpharetta, Georgia. On August 29, 2008, the Georgia Department of
Banking and Finance (DBF) closed Integrity and named the FDIC as receiver. On
September 17, 2008, the FDIC notified the OIG that Integrity’s total assets at closing
were $1.045 billion, and the estimated loss to the Deposit Insurance Fund (DIF) was
$295 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations for preventing future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38.
Appendix 1 contains details on our objectives, scope, and methodology; and Appendix 2
contains a glossary of terms. Acronyms used in the report are listed in Appendix 4.


1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or
2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by the institutions. The FDIC’s
Division of Supervision and Consumer Protection (DSC) (1) performs examinations of FDIC-supervised
institutions to assess their overall financial condition; management policies and practices, including internal
control systems; and compliance with applicable laws and regulations; and (2) issues related guidance to
institutions and examiners.

                                                        1
    This report presents the FDIC OIG’s analysis of Integrity’s failure and the FDIC’s efforts
    to require Integrity’s management to operate the bank in a safe and sound manner. The
    FDIC OIG plans to issue a series of summary reports on the material loss reviews it is
    conducting. These reports will summarize our observations on the major causes, trends,
    and common characteristics of failures resulting in a material loss to the DIF and will
    make recommendations applicable to the FDIC’s supervision of the institutions,
    including implementation of the PCA provisions of section 38.


BACKGROUND

    Integrity was a state-chartered nonmember bank, which received approval from the DBF
    to open for business on November 1, 2000, and was insured by the FDIC effective
    November 1, 2000. Integrity, which was headquartered in Alpharetta, Georgia:

            •    had five branches in Alpharetta, Roswell, Smyrna, Duluth, and Cumming,
                 Georgia;

            •    had a holding company, with no other subsidiaries or affiliates;

            •    provided traditional banking activities within its marketplace; and

            •    specialized in commercial lending, with concentrations in acquisition,
                 development, and construction (ADC) loans.

    Integrity’s local marketplace was, at one time, characterized by rapidly appreciating real
    estate values. However, real estate values experienced a significant downturn in 2007
    that impacted borrowers’ ability to make payments, and the real estate construction
    industry was negatively impacted.

    DSC’s Atlanta Regional Office (ARO) and DBF alternated safety and soundness
    examinations of Integrity. For the period that we reviewed, five examinations were
    conducted, starting in April 2004 and ending in March 2008. DSC also conducted
    visitations in May 2007 and February 2008. At the June 2007 examination, Integrity’s
    composite rating was downgraded to 4, 3 indicating unsafe and unsound practices or
    conditions and a distinct possibility of failure if such conditions and practices were not
    satisfactorily addressed and resolved. As a result of the March 2008 examination,
    Integrity’s composite rating was downgraded to 5, indicating extremely unsafe and
    unsound practices or conditions; critically deficient performance, often with inadequate


    3
      Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
    (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
    Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
    Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
    through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


                                                         2
   risk management practices; and great supervisory concern. Institutions in this category
   pose a significant risk to the DIF and have a high probability of failure.

   Further, with respect to selected component ratings, as indicated in the figure below, at
   the June 2007 examination, Integrity’s management rating was downgraded from 2 to 4,
   and its asset quality rating was downgraded from 1 to 4. As a result of the March 2008
   examination, examiners downgraded Integrity’s asset quality to 5 and the liquidity rating
   to 4.


                                         Integrity's Key CAMELS Ratings


                        15
       CAMELS Ratings




                        24                                                                          Apr-04
                                                                                                    Apr-05
                        33
                                                                                                    May-06
                        42
                                                                                                    June-07
                        51
                                                                                                    Mar-08
                        0
                             Composite
                                 1        Management
                                              2             Asset3 Quality       Liquidity
                                                                                   4



   Details on Integrity’s financial condition, as of June 2008, and for the 4 preceding
   calendar years follow in Table 1.

   Table 1: Financial Condition of Integrity
                                             June-08           Dec-07          Dec-06           Dec-05           Dec-04
Total Assets ($000s)                          $1,107,514      $1,209,722      $1,120,244         $751,036         $444,631
Total Deposits ($000)                           $962,456      $1,000,245        $930,776         $674,499         $373,500
Total Loans ($000s)                             $849,800        $930,628        $941,580         $651,778         $385,906
Net Loan Growth Rate                               (19%)            (3%)            44%              69%              63%
Net Income (Loss) ($000s)                      ($33,563)       ($45,196)         $12,010           $7,512           $3,694
Loan Mix (% of Avg. Gross Loans):
All Loans Secured by Real Estate               98%              97%             94%              95%              95%
 Construction and Development                  79%              75%             67%              57%              52%
 Commercial Real Estate (CRE) –
 Nonfarm/ nonresidential                       14%              14%             16%              23%              33%
 Multifamily Residential Real Estate           2%               2%              2%               1%               1%
 1-4 Family Residential – excluding
 Home Equity Lines of Credit                    2%               2%              2%               2%               3%
  Home Equity Loans                             1%               2%              2%               1%               1%
Construction and Industrial Loans                2%               3%              5%                5%               5%
                                                290%             104%             6%                2%              22%
Adverse Classifications Ratio
                                           March 2008 ROE   June 2007 ROE    May 2006 ROE    April 2005 ROE   April 2004 ROE
   Source: Uniform Banking Performance Report (UBPR) and Reports of Examinations (ROEs) for Integrity.


                                                                  3
RESULTS IN BRIEF

     Integrity failed primarily due to management’s aggressive pursuit of asset growth
     concentrating in higher-risk ADC loans without adequate controls. Integrity lacked
     adequate loan underwriting and other loan portfolio and risk management controls and
     liquidity management practices to support its growth strategy. Resulting losses severely
     eroded Integrity’s capital, leading to its failure and the material loss to the DIF.
     Specifically:


     Management. Integrity’s BOD did not ensure that bank management identified,
     measured, monitored, and controlled the risk of the institution’s activities. In addition,
     the BOD did not ensure the implementation of corrective actions in response to bank
     examinations and audit recommendations. In particular, Integrity did not provide
     adequate controls over the lending function, including credit underwriting, credit
     approval, appraisals, loan documentation, and problem loan recognition. By the end of
     2007, Integrity’s management had been replaced, and new management was making an
     effort to address the bank’s problems; however, bank management was not able to correct
     the condition of the bank sufficiently to prevent failure.


     Asset Quality. Integrity concentrated its lending in ADC loans in rapidly growing
     markets, including out-of-territory markets, and concentrated its loans to individuals to an
     extent that exceeded state lending limits. While doing so, Integrity did not follow sound
     loan underwriting standards and administration practices, including: (1) adequately
     supporting loan presentations, (2) recognizing problem assets in a timely manner,
     (3) effectively classifying loans, (4) establishing a methodology in compliance with
     interagency policy for determining the adequacy of the allowance for loan and lease
     losses (ALLL), and (5) establishing controls over the use of interest reserves. In addition,
     Integrity did not perform global cash flow analyses for large borrowers to establish a
     comprehensive picture of bank debt. As asset quality declined and losses were
     recognized, earnings and capital were eroded.


     Liquidity. Integrity relied on volatile sources of funding, such as brokered deposits and
     Federal Home Loan Bank (FHLB) advances, to support its asset growth. In 2008, these
     sources of funding were not readily available as Integrity’s condition deteriorated.
     Although new bank management was closely monitoring liquidity, management was not
     able to obtain sufficient funds on reasonable terms to meet liquidity needs.


     Supervision. The FDIC and DBF conducted timely examinations of Integrity. The
     FDIC also provided oversight through its off-site monitoring process. In February 2008,
     the FDIC issued a Cease and Desist Order (C&D) and conducted a visitation to review
     actions taken as a result of the C&D. Further, in July 2008 and again in August 2008, the
     FDIC used its authority under the PCA provisions of the FDI Act to issue PCA Directives

                                                   4
      when Integrity became undercapitalized and then significantly undercapitalized. The
      FDIC has authority to take a wide range of supervisory actions. In the case of Integrity,
      however, supervisory actions were not timely and effective in addressing the bank’s most
      significant problems.

      The FDIC has taken steps to improve its supervisory oversight of financial institutions
      that have concentrations in ADC loans and use interest reserves. However, examiners
      noted deficiencies in Integrity’s loan administration and underwriting in the 2005 and
      2006 examinations that should have warranted greater concern. Specifically, these
      examinations identified significant risks in Integrity’s loan portfolio, including a high
      concentration in ADC and individual loans, out-of-territory lending, and loan
      administration issues that were not corrected in subsequent examinations as Integrity’s
      risk profile was increasing. Greater concern regarding Integrity’s loan administration and
      underwriting weaknesses could have led to elevated supervisory attention and earlier
      supervisory action.


MANAGEMENT

      Examinations in 2005 and 2006 resulted in a 2 management rating for Integrity. At the
      2007 examination, the rating was downgraded to a 4, due to concerns about deficient
      BOD and management performance, inadequate risk management practices, and
      excessive risk exposure particularly regarding ADC loan concentrations. Significant
      risks had been inadequately identified, measured, monitored, or controlled and required
      immediate action by the BOD and management to preserve the safety and soundness of
      the institution. By year end 2007, Integrity’s BOD hired a new senior management team
      to correct the bank’s problems, and the rating was upgraded to a 3 in the 2008
      examination. However, new management was not able to sufficiently correct the
      condition of the bank to prevent failure.


Ineffective BOD and Management

      Examiners noted concerns with Integrity’s BOD and management in the 2005
      examination, including issues related to excessive growth, individual loan and ADC
      concentrations, ALLL, compliance with laws and regulations, and loan administration.
      Many of those issues continued throughout the bank’s existence. Integrity examinations
      showed a continuing pattern of inadequate risk management for ADC loans, inadequate
      loan presentations, and inadequate loan administration, resulting in an increasing risk
      profile for the institution. The loan administration deficiencies were repeated and
      compounded as noted in the 2006 through 2008 examinations and led to asset quality
      deterioration. Table 2, which follows, provides examples of examiner comments and
      recommendations related to Integrity’s BOD and management.




                                                   5
Table 2: Examples of Examiner Comments and Recommendations Regarding
Integrity’s BOD and Management Performance
           Examiner Comments                                  Examination and Visitation Dates
                                                April April May             May        June       Feb       March
                                                2004 2005 2006             2007(a)     2007      2008(b)     2008
Overall conclusion on BOD and management performance
    • Satisfactory                                9        9        9
    • Failure to maintain proper policies,                                               9                     9
      processes, and controls to assure bank’s
      long-term success
Compliance with laws and regulations
    • Apparent violations of appraisal                     9        9                    9                     9
      practices
    • Apparent violations of state legal                                                 9                     9
      lending limits
    • Noncompliance with real estate loan-to-              9        9                    9                     9
      value ratios
    • Inadequately maintaining and funding                 9                  9          9
      the ALLL
Growth of operations
    • Loan growth was aggressive and              9        9                             9
      significant
    • Loan portfolio was concentrated in          9        9        9                    9                     9
      individual borrowers and CRE and
      ADC high-risk loans
    • Significant out-of-territory lending        9        9        9         9          9
Loan documentation and administration
    • Deterioration of asset quality, including   9                           9          9         9           9
      increases in adversely classified items
    • Inadequate ALLL methodology                          9                             9
    • Deficiencies in loan underwriting and                9                             9
      administration
    • Asset quality negatively affected by                                                         9           9
      economic downturn
Examiner recommendations
    • Address noncompliance with applicable                9        9                    9                     9
      laws and regulations
    • Improve practices and procedures in         9                 9                    9                     9
      loan administration and internal routines
      and controls
Source: Integrity ROEs, issued by DBF and the FDIC, and FDIC visitation reports.
(a)
    FDIC Visitation.
(b)
    In February 2008, the FDIC conducted a visitation that identified substantial deterioration in Integrity’s
condition. By February 2008, the prior president, senior lending officer, chief operating officer, and
executive vice president of risk management had been replaced, and since June 2007, only three original
directors remained.


Risk Management. Integrity management did not ensure that adequate risk management
controls were implemented and followed. Furthermore, Integrity’s management did not
implement corrective actions in a timely manner to adequately address deficiencies
identified by examiners and auditors related to the bank’s inadequate risk management
controls for loan documentation, administration, and monitoring.

                                                       6
The bank did not adequately identify, measure, monitor, and report on a regular basis to
the BOD on ADC concentrations, overall portfolio performance, and use of interest
reserves. Integrity’s loan policy did not adequately establish limits for concentrations in
ADC loans or provide for tracking the total volume of ADC loans. The ADC
concentration was 931 percent and 1,025 percent of Tier 1 Capital at the June 2007 and
March 2008 examinations, respectively. Given such growth and the increased risk profile
that accompanied the decision by Integrity’s BOD and management to pursue this
lending activity, the BOD needed to provide a clear framework of controls for risk
management.

The June 2007 ROE noted that the bank’s overall portfolio risk identification, measuring,
monitoring, and reporting practices were ineffective and contributed to the bank’s poor
condition. Prior management did not provide adequate oversight, policies, and controls
to ensure Integrity’s continued viability. New management, hired in 2007 along with a
new bank president, was unable to correct the loan deficiencies, loan administration risks,
and liquidity risks, and those issues were not adequately addressed at the last examination
in March 2008. Specifically, the FDIC’s March 2008 examination concluded that while
new management had aggressively identified risks within the bank, excessive risk-taking
practices of the former management team caused a severe deterioration in the condition
of the institution.

We consider inadequate risk management controls and the lack of management action to
address control deficiencies to be a significant concern, which we will address in our
summary reports covering multiple bank failures.


Inadequate Actions for Apparent Violations of Regulatory Requirements. Beginning
with the bank’s April 2005 examination, examiners cited Integrity for apparent violations
of laws and regulations related to, for example, appraisals and real estate lending policies;
contraventions of interagency policies on interest rate risk, supervisory loan-to-value
limits, and ALLL; and the Financial Institutions Code of Georgia legal lending limits.
These violations represented increased risk and should have warranted greater concern due
to Integrity’s rapid growth. According to Appendix A of Part 365, Interagency Guidelines
for Real Estate Lending Policies, the real estate lending policy should be appropriate to the
size of the institution. In addition, the DSC Risk Management Manual of Examination
Policies (Examination Manual) states that an institution’s BOD and management should
implement appropriate policies and procedures to effect compliance, detect instances of
noncompliance, institute corrective measures, and provide adequate training and retraining
of officers and employees to prevent future infractions. Further, the Examination Manual
states that it is important that correction of all apparent violations of laws and regulations
be instituted promptly, regardless of their perceived importance.

Integrity’s BOD and management failed to implement adequate controls to ensure
compliance with laws, regulations, and other regulatory requirements, with apparent
violations being reported in each of its last four examinations.



                                               7
      We consider the inadequate actions for addressing apparent violations of laws and
      regulations and contraventions of interagency policies to be a significant concern, which
      we will address in our summary reports covering multiple bank failures.


Regulatory Supervision Related to Management

      According to the Examination Manual, the quality of management is probably the single
      most important element in the successful operation of a bank. The BOD is responsible
      for formulating sound policies and objectives for the bank, effective supervision of its
      affairs, and promotion of its welfare, while the primary responsibility of senior
      management is implementing the BOD’s policies and objectives in the bank’s day-to-day
      operations. Also according to the manual, the capability and performance of
      management and the BOD is rated based upon, but not limited to, an assessment of
      compliance with laws and regulations.

      The FDIC’s 2005 examination rated management a 2, which indicates satisfactory
      management and BOD performance and risk management practices. This rating indicates
      that minor weaknesses may exist and significant risks are effectively identified,
      measured, monitored, and controlled. However, the examination cited as risks, items that
      ultimately caused the institution to fail. Specifically, the examiners expressed concern
      that the risk profile was characterized by the following elements: rapid loan growth;
      large individual concentrations; ADC concentrations; out-of-territory lending; and a
      marginal ALLL, including contravention of FIL-63-2001, Interagency Policy Statement
      on Allowance for Loan and Lease Losses (ALLL) Methodologies and Documentation for
      Banks and Savings Associations, dated July 25, 2001. Examiners also noted appraisal
      deficiencies and minor deficiencies in loan underwriting and administration. The
      examiners reasoned that management satisfactorily managed the risk as evidenced by
      strong asset quality and earnings. The DBF’s 2006 examination of Integrity stated that
      the risk profile remained unchanged, and management was again rated a 2. However,
      repeat violations of laws and regulations were identified relevant to appraisals, lending
      policies, and contraventions of interagency policies regarding supervisory loan-to-value
      limits, while Integrity’s loans increased by another 44 percent.

      As a result of the 2007 examination, examiners downgraded Integrity’s management
      rating from 2 to 4. The FDIC stated that the performance of senior management and the
      BOD was deficient primarily as a result of inadequate oversight and supervision of the
      lending function. The BOD had not provided effective oversight of the lending function
      as evidenced by weaknesses related to credit underwriting, credit approval processes,
      appraisal practices, loan documentation, credit administration, and problem loan
      recognition. The examination criticized management’s contravention of policy
      statements regarding the adequacy of ALLL, the appraisal review program, real estate
      loan-to-value limits, and the interest rate risk management program. The examination
      also noted repeat deficiencies regarding large individual concentrations, ADC
      concentrations, and out-of-territory lending. Following this examination, the BOD
      replaced most of Integrity’s senior management as noted earlier.

                                                   8
    Generally, Integrity provided written responses to each examination and promised
    corrective actions, and examiners generally followed up on any recommendations at the
    next examination. However, Integrity disputed the 2005 and 2006 examination ratings
    while agreeing to resolve any concerns before the next examination. Although the FDIC
    accepted Integrity’s responses, Integrity failed to implement actions to sufficiently
    address the 2005, 2006, and 2007 examination results, which contributed to the continued
    deterioration of Integrity’s financial condition.


ASSET QUALITY

    Integrity’s asset quality rating fluctuated between 1 and 2 from April 2004 through its
    May 2006 examination. Integrity’s asset quality was downgraded to a 4 rating in its June
    2007 examination and to a 5 rating in its March 2008 examination as a result of continued
    loan classifications. These significant downgrades indicated that the bank’s level of risk
    and problem assets was excessive and inadequately controlled and subjected the bank to
    potential losses that threatened the viability of the institution.

    Integrity’s loan classifications significantly increased, from $0.9 million in 2005 to over
    $313.9 million in 2008. At the April 2005 examination, adversely classified loans
    represented 1.78 percent of capital and, by March 2008, adversely classified loans totaled
    more than 290 percent of capital. Corresponding increases in Integrity’s ALLL were also
    significant (see Table 3).

    Table 3: Integrity’s Asset Classifications and ALLL (Dollars in Thousands)
                                   Asset Classifications                     Analysis of ALLL


                                                                 Total      ALLL Computed by
     Examination                                               Classified       Integrity
        Date         Substandard   Doubtful         Loss         Items

    April 2001              0          0            0             0                $56
    Oct 2001                0         0             0             0                $234
    July 2002               0          0             0             0               $545
    May 2003             $1,764        0             0          $1,764            $1,417
    April 2004           $3,334     $2,319         $550         $6,203            $3,572
    April 2005            $917         0             0           $917             $3,433
    May 2006             $5,930        0           $142         $6,072            $6,743
    June 2007           $92,484        0          $37,175      $129,659          $10,898
    March 2008          $293,715   $20,073         $157        $313,945          $38,489
    Source: ROEs for Integrity.

    In addition to the $6.1 million in adversely classified assets at the 2006 examination,
    examiners identified one $18.1 million loan as “Special Mention,” which refers to loans
    that have potential weaknesses that deserve management’s close attention and, if left
    uncorrected, could result in a deterioration of the status of those assets. By the 2007



                                                           9
      examination, examiners reported a total of more than $160 million in Special Mention
      loans for six individual loan concentrations.


Examiner Concerns and Recommendations Regarding Asset Quality

      Examiner concerns regarding Integrity’s asset quality related to its concentration in high-
      risk CRE/ADC loans in rapidly growing markets, including out-of-territory markets, as
      well as the extent of Integrity’s concentration of loans to individuals which exceeded
      state lending limits (see Table 4). Specifically, Integrity did not follow sound loan
      underwriting standards and administration practices.

      Table 4: Examples of Examiner Comments and Recommendations Regarding
      Integrity’s Asset Quality
                      Examiner Comments                                       Examination and Visitation Dates
                                                                   April   April May      May     June     Feb   Mar
                                                                   2004    2005  2006 2007* 2007 2008*           2008
      Overall conclusion on Integrity’s asset quality
       • Strong or satisfactory                                     9       9       9
       • Required the BOD to actively oversee operations                                           9              9
      CRE and ADC concentrations
       • Concentration developing or already developed              9       9       9              9              9
       • Concern of excessive use of interest reserve                               9              9
          component in ADC loans
       • Increasing risk profile based on loan portfolio                                   9              9       9
          affected by an economic downturn
      Adverse classifications
       • Noticeable loan quality deterioration                                             9       9      9       9
       • Significant increases in adverse classifications           9                              9              9
      Assessment of risk management practices
       • Risk management, monitoring, and reporting                 9       9       9
          practices adequate
       • Loan documentation and/or underwriting                     9       9       9
          standards satisfactory
       • ALLL methodology inadequate                                        9                      9
       • ALLL not adequately funded                                         9                      9      9
       • Significant increase in ALLL                                                              9              9
      Examiner recommendations
       • Establish an effective real estate appraisal and                                          9              9
          evaluation program
       • Conform with Uniform Standards of Professional                     9       9              9              9
          Appraisal Practice
       • Develop commercial ADC underwriting and                    9
          administration guidelines
       • Establish individual and aggregate limits for loan                         9              9
          concentrations
       • Comply with legal lending limit                                                           9              9
       • Document and improve the ALLL methodology                          9                      9
          and allowance




                                                              10
                        Examiner Comments                                            Examination and Visitation Dates
                                                                         April    April May      May     June     Feb   Mar
                                                                         2004     2005  2006 2007* 2007 2008*           2008
        • Identify and report real estate loans exceeding the                            9                9              9
           supervisory loan-to-value guidelines to the BOD
     Source: ROEs and visitation reports for Integrity.
     * FDIC visitation.



Concentration in CRE and ADC Loans

      Integrity’s concentrations in individual and CRE loans, including ADC loans, was first
      noted during DBF’s April 2001 examination when those loans comprised 81.6 percent of
      the loan portfolio and 150 percent of Tier 1 Capital. Steady and rapid increases in
      individual and CRE-related risk exposure followed, as indicated in Table 5 below.

      Table 5: Integrity’s Loan Concentrations and Classifications
                               Percent of Tier 1          Percent of Tier 1
         Examination               Capital                    Capital            Total Classified
            Date                   Funded                   Committed               Loans(a)         ALLL(a)
            April 2001                 150.0               Not Provided                   0             $56
            Oct 2001                   141.4                    288.3                     0            $234
            July 2002                  472.6                   502.7(b)                   0            $545
            May 2003                   647.7                    918.8                  $1,764         $1,417
            April 2004                 540.9                    736.5                  $6,203         $3,572
            April 2005                 643.5                    857.0                   $917          $3,433
            May 2006                   629.2                    818.5                  $6,072         $6,743
            June 2007                 1,296.5                  1,645.5                $129,659        $10,898
           March 2008                 1,474.7                  1,674.8                $313,945        $38,489
      Source: The ROEs for Integrity.
      (a)
          Dollars in thousands.
      (b)
          No details were available for total loans committed to industry concentrations.



      Integrity’s loan commitments steadily grew even though at the 2004 and 2006
      examinations, lending levels decreased as a percentage of Tier 1 Capital. The decrease in
      the 2004 ratio was attributed to over $6.8 million in stock offerings and a high earnings
      performance that increased capital. The 2006 decrease in the ratio was partially
      attributed to an injection of $25 million in capital by Integrity’s holding company.
      However, by 2008, the holding company was no longer a source of funding to improve
      the capital level. In June 2007, Integrity was adequately capitalized although individual
      and CRE loans represented 1,296.5 percent of Tier 1 Capital, and total classified loans
      had increased over 2,000 percent since May 2006. By March 2008, total classified loans
      had increased another 142 percent, and Integrity’s capital level was deemed critically
      deficient by the FDIC.

      On December 12, 2006, the banking agencies, which includes the FDIC, Board of
      Governors of the Federal Reserve System, and Comptroller of the Currency, issued joint
      guidance on CRE lending entitled, Guidance on Concentrations in Commercial Real
      Estate Lending, Sound Risk Management Practices. The guidance acknowledged that a
      concentration in CRE/ADC loans, coupled with weak loan underwriting and depressed

                                                                    11
CRE markets, has contributed to significant loan losses. 4 However, Integrity focused its
loan portfolio in high-risk CRE/ADC loans and failed to ensure that adequate risk
management controls were developed and implemented. For example, financial and
repayment analyses were inadequate because Integrity did not perform global cash flow
analyses for individual borrowers to establish a comprehensive picture of bank debt. In
addition, Integrity did not effectively classify these loans and adequately support loan
presentations with appropriate documentation. Examiners recommended several actions
to mitigate the bank’s CRE risk—such as enhanced monitoring of concentrations and
improvements to loan underwriting and administration. However, bank management
failed to implement actions to adequately address those recommendations, and asset
quality continued to decline. Beginning with the June 2007 examination, and continuing
through the March 2008 examination, examiners identified a high level of adverse
classifications along with significant increases of classified and Special Mention loans
and an inadequate ALLL. As asset quality declined and losses were recognized,
Integrity’s liquidity position became critical, and earnings and capital were eroded. We
consider loan concentrations to be a significant concern, which we will address in our
summary reports covering multiple bank failures.


Interest Reserves. Integrity did not have adequate controls related to the use and
reporting of interest reserves. Integrity’s management extended or refunded the interest
reserves for some loans. However, Integrity did not maintain complete records on the
extent and number of loans funded with interest reserves, or have sufficient guidance for
the use of interest reserves, such as provisions in loan agreements that provide for the
discontinuation of funding of the interest reserve in the event a project falls behind
projected performance goals. At the 2007 examination, examiners identified a total of
about $15 million in interest reserves on the loans sampled. Of that amount, $2.7 million
was adversely classified as “loss” in the ROE. Integrity’s liberal use of interest reserves
masked the deterioration of these loans and resulted in overstated interest income. We
consider inadequate controls over the use and reporting of interest reserves to be a
significant concern, which we will address in our summary reports covering multiple
bank failures.

DSC has issued guidance on the use of interest reserves. In November 2007, the ARO
issued guidance entitled, Identification and Analysis of Interest Reserves at Risk
Management Examinations. In April 2008, DSC issued corporate-wide guidance
reiterating the November 2007 ARO guidance. In addition, in June 2008, DSC issued
guidance to examiners and FDIC-supervised financial institutions on the use of interest
reserves. The guidance describes the use of interest reserves in ADC lending, examines
the risk this underwriting practice could present, and identifies “red flags” that should
alert lenders to potential problems at each stage of the ADC cycle.


4
 The FDIC also issued Financial Institution Letter (FIL) 22-2008 on March 17, 2008, entitled, Managing
Commercial Real Estate Concentrations In a Challenging Environment, which re-emphasized the
importance of strong capital, ALLL and loan risk-management practices for state nonmember institutions
with significant CRE and construction and development loan concentrations.

                                                    12
      Allowance for Loan and Lease Losses. Integrity’s methodology for determining the
      ALLL did not comply with interagency policy. According to the Interagency Policy
      Statement on the Allowance for Loan and Lease Losses, (FIL-105-2006), dated
      December 13, 2006, each institution must analyze the collectibility of its loans and
      maintain an ALLL at a level that is appropriate and determined to be in accordance with
      Generally Accepted Accounting Principles (GAAP). 5 An appropriate ALLL covers
      estimated loan losses on individually evaluated loans that are determined to be impaired
      as well as the estimated loan losses inherent in the remainder of the loan and lease
      portfolio.

      The ROE for the April 2005 examination reported that Integrity’s ALLL methodology
      was in contravention of the FIL-63-2001, Interagency Policy Statement on Allowance for
      Loan and Lease Losses (ALLL) Methodologies and Documentation for Banks and
      Savings Associations, dated July 25, 2001. Integrity’s ALLL was marginally adequate
      because Integrity did not include unfunded lending commitments in its methodology for
      determining ALLL. Although examiners made no reference to Integrity’s ALLL
      methodology in the May 2006 examination, FDIC examiners reported in the June 2007
      ROE that Integrity was again not conforming to the interagency policy. Examiners
      deemed the ALLL inadequate due to Integrity’s ineffective risk rating system and
      untimely recognition of problem credits. As a result of its ineffective ALLL
      methodology, Integrity understated the ALLL and overstated capital and earnings. As a
      result of additional problem credits the examiners identified during this examination,
      Integrity added another $34 million to the ALLL. Integrity’s new management team
      completed a review of the entire loan portfolio by August 31, 2007 and increased the
      ALLL by an additional $14 million.

      In compliance with the C&D issued in February 2008, Integrity’s BOD approved an
      ALLL policy that outlined the methodology for analyzing the adequacy of the ALLL and
      established an ALLL committee that was responsible for maintaining the ALLL
      methodology and maintaining documentation to support the quarterly analysis.

      We consider an inadequate methodology for determining the ALLL to be a significant
      concern, which we will address in our summary reports covering multiple bank failures.


Regulatory Supervision Related to Asset Quality

      Greater examination attention to weaknesses in loan underwriting and administration
      practices could have led to elevated supervisory concern when deficiencies were first
      identified and to more timely enforcement action. Between 2004 and 2006, Integrity’s
      loan portfolio more than doubled with high concentrations in ADC lending. As the loan

      5
        The interagency policy statement reiterates key concepts and requirements pertaining to the ALLL
      included in GAAP and existing supervisory guidance. In addition, it describes the nature and purpose of
      the ALLL; the responsibilities of BODs, management, and examiners; factors to be considered in the
      estimation of the ALLL; and the objectives and elements of an effective loan review system, including a
      sound loan grading system.

                                                           13
portfolio seasoned and the economy weakened, the loan underwriting deficiencies
identified by examiners became apparent in the form of adversely classified loans.
Examiners assigned a 1 rating for asset quality in the 2005 and 2006 examinations. The
rating was largely based on the low level of adversely classified assets in the portfolio.
However, examiners noted deficiencies in Integrity’s asset quality in the 2005 and 2006
examinations that should have warranted greater concern. These examinations identified
significant risks in Integrity’s loan portfolio, including a high concentration in ADC and
individual loans, out-of-territory lending, and loan administration issues that had not been
corrected in subsequent examinations as Integrity’s risk profile was increasing.
Additionally, the actual condition of these loans was, in part, masked by the use of
interest reserves, as identified by examiners in 2007 and 2008.

At the April 2005 examination, Integrity had six individual borrower concentrations that
totaled 256 percent of Tier 1 Capital as of March 31, 2005. Examiners reported that
Integrity’s management was appropriately monitoring these concentrations. Although
three of the concentrations exceeded Integrity’s loan policy limit, examiners noted that
the exceptions had been approved by Integrity’s BOD. In addition, funded ADC loans
represented 385 percent of Tier 1 Capital, and out-of-territory loans represented 141
percent of Tier 1 Capital as of March 31, 2005.

At the DBF May 2006 examination, examiners identified four individual borrower
concentrations. As discussed earlier, an $18.1 million loan to one of these borrowers was
identified as Special Mention because management funded $6.1 million in loan proceeds
without appropriate documentation prior to funding the request. Out-of-territory loans
represented 146 percent of Tier 1 Capital, a slight increase from 2005. At the 2006
examination, examiners first reported that the CRE/ADC loans, representing 35 percent
of Integrity’s loan portfolio, had an interest reserve component that could mask the
deterioration of the loans. Although examiners concluded that Integrity’s risk
management policies and practices for credit were adequate, examiners recommended
that the bank establish both individual and aggregate limits for individual borrower
concentrations. The ROE for this examination also reported that Integrity was in
violation of Part 365, Appendix A, Real Estate Lending, of the FDIC Rules and
Regulations. 6 Because Integrity had not developed an effective method to identify its
loan-to-value exceptions, it did not provide quarterly reports of these exceptions to its
BOD. Bank management disagreed with many of the reported exceptions based on the
experience of its management team and conservative practices to mitigate risks; however,
management agreed to report any Part 365 exceptions to its BOD.

In a press release of its first quarter earnings for 2007, Integrity explained that a dramatic
increase in past due loans was due to a group of loans, totaling approximately $83 million
in the aggregate, to entities controlled by one guarantor. The FDIC conducted a visitation
in May 2007 to investigate this guarantor’s lending relationship. The examiners
6
  Part 365, Appendix A, charges each bank to establish its own internal loan-to-value limits for real estate
loans, provided such limits do not exceed the supervisory limits in Appendix A. If the bank grants loans in
excess of the Appendix A limits, management must identify such loans on the bank’s records and report the
aggregate amount to the BOD as least quarterly.

                                                      14
estimated a possible loss of $20 to $40 million to Integrity if the guarantor was unable to
meet its obligation and defaulted on these past-due loans.

FDIC examiners reviewed the lending relationship further during the June 2007
examination. The team for the 2007 examination was instrumental in identifying the
extent of Integrity’s asset quality issues. By the June 2007 examination, examiners
identified significant asset quality deterioration due to a significant increase in adversely
classified assets and numerous loan underwriting and administration deficiencies, such
as:

   •   Ineffective appraisal practices and inaccurate and inadequately supported loan
       presentations.
   •   Untimely recognition of problem assets due to an ineffective internal loan grading
       system and questionable loan review program.
   •   Inadequate method for determining the adequacy of the ALLL.
   •   Liberal use of interest reserves that masked the deterioration of assets.
   •   Liberal lending limits to borrowers that circumvented legal lending limits through
       the use of limited liability corporations and a lack of cash flow analyses for large
       borrowers in order to establish a comprehensive picture of bank debt.
   •   Risky concentrations of credit in CRE/ADC loans as well as individual
       concentrations.
   •   Inadequately controlled loan disbursements, as well as loan officers and directors
       operating outside of Integrity’s loan policy guidelines.

As discussed earlier, the FDIC issued a C&D to Integrity in February 2008 due to
Integrity’s unsafe and unsound banking practices and violations of regulations reported in
the FDIC’s June 2007 ROE. The FDIC and DBF issued the C&D on February 20, 2008.
A visitation had been conducted by the FDIC on February 11, 2008 to review information
pertaining to asset quality and liquidity and the processes that management was
implementing to conform to the C&D. As a result of the visitation, asset quality and
earnings ratings were downgraded due to the increase in adversely classified assets and
inadequate provisions to the ALLL.

By the March 2008 examination, examiners reported critically deficient asset quality due
to another significant increase in adversely classified assets, former management’s
excessive risk taking, and loan underwriting and administration deficiencies. FDIC
examiners expressed concern about Integrity’s high ADC concentration, at 1,025 percent
of Tier 1 Capital, because Integrity’s residential real estate construction portfolio was
over 90 percent speculative, and there was an oversupply of houses in the Atlanta market.
However, Integrity’s new management was in full or partial compliance with the C&D.
Despite new management’s efforts to address the high-risk practices of the previous
management team and to comply with the C&D, asset quality continued to decline, and
Integrity was not able to obtain funding to remain viable. Elevated and timely criticism
of the bank’s loan administration and underwriting deficiencies identified in earlier
examinations might have led to earlier corrective action by bank management and earlier
supervisory action that may have prevented these difficulties.

                                               15
LIQUIDITY

      Examiners for the April 2004, April 2005, and May 2006 risk management examinations
      assigned a 2 rating to Liquidity. By the June 2007 examination, liquidity was
      downgraded to a 3 rating, and by the March 2008 examination, liquidity was further
      downgraded to a 4 rating, indicating that Integrity had deficient liquidity levels or
      inadequate funds management practices. Integrity also may not have been able to obtain
      a sufficient volume of funds on reasonable terms to meet liquidity needs.

      A bank’s net non-core funding dependency ratio (dependency ratio) indicates the degree
      to which the bank is relying on non-core/volatile liabilities, 7 such as time deposits of
      more than $100,000; brokered deposits; and FHLB advances to fund long-term earning
      assets. Generally, the lower the ratio, the less risk exposure there is for the bank. Higher
      ratios reflect a reliance on funding sources that may not be available in times of financial
      stress or adverse changes in market conditions. Integrity’s reliance on non-core/volatile
      liabilities began in 2005 and continually increased through 2008. Table 6, which follows,
      provides a synopsis of Integrity’s net non-core dependency ratios and non-core funding
      sources, including CDs over $100,000; brokered deposits; and FHLB advances that were
      comparable to its peer group.

      Table 6: Integrity’s Non-Core Funding Sources
                                           Non-Core Funding Sources                    Net Non-Core Dependency
                                             (Dollars in Thousands)                               Ratios
          Period Ending                                                                         (Percent)
                                 Time Deposits          Brokered          FHLB          Integrity      Peer Group
                               $100,000 or More         Deposits
      December 31, 2004              $54,779               0             $15,000          17.18%          21.30%
      December 31, 2005             $135,473            $150,011             0            17.96%          22.29%
      December 31, 2006             $169,615            $247,988          $5,000          20.77%          27.27%
      December 31, 2007             $202,035            $233,238         $65,000          23.12%          29.32%
      June 30, 2008                 $155,687            $170,145         $65,000          20.94%          33.96%
      Source: Review of Integrity’s UBPR and ROEs.


Examiner Concerns and Recommendations Regarding Liquidity

      Examiner concerns over Integrity’s liquidity position were noted throughout its existence.
      From the institution’s inception, examiners noted that Integrity’s management had
      implemented an aggressive funds management strategy that placed reliance on volatile
      sources of funds to support asset growth. In the April 2004 examination, DBF examiners
      described Integrity’s liquidity position as “marginally satisfactory,” referencing
      Integrity’s continued reliance on non-core funding to support significant growth in the
      bank’s loan portfolio. DBF examiners also noted that Integrity did not include all volatile
      sources of funds in its dependency ratio calculation. This resulted in Integrity reporting

      7
       Volatile sources of funds include: Certificates of Deposit (CD) acquired through the Internet; QuickRate
      Internet Deposits; Brokered CDs and Jumbo CDs (greater than $100,000); FHLB advances; and
      Repurchase Agreements.

                                                           16
a more favorable dependency ratio. However, when examiners recalculated the
dependency ratio, including the Internet CDs, for example, Integrity’s dependency ratio
changed from 16.59 percent to 25 percent at the April 2004 examination. Examiners
described the condition in three separate ROEs (see Table 7) and recommended the
discontinuance of this practice.

Table 7: Dependency Ratios as Calculated by Integrity and Examiners
    Examination Date        Integrity’s Calculation       Examiners’ Calculation
 April 2004                          16.59%                      25%
 May 2006                            27.63%                      42.89%
 March 2008                          22.27%                      26.5%
Source: Review of Integrity’s UBPR and ROEs.



At the 2008 examination, examiners noted that the interest Integrity paid on aggressive
funding sources was higher than the interest Integrity earned on its investments, resulting
in reduced earnings. Examiners also noted that past rapid asset growth, declining asset
quality, and poor earnings were indications of increasing liquidity risk that could
compromise Integrity and cause a liquidity crisis. Although Integrity’s BOD reviewed
liquidity reports and ratios, bank management did not implement adequate controls to
ensure the bank had sufficient sources of funds for a liquidity crisis. Examiners’
comments and recommendations related to liquidity are summarized in Table 8, which
follows.




                                                  17
Table 8: Examples of Examiner Comments and Recommendations Regarding
Integrity’s Liquidity
                          Examiner Comments                                            Examination Dates
                                                                              April   April May June       March
                                                                              2004    2005 2006 2007       2008
Overall conclusion on Integrity’s liquidity
  • Marginally Satisfactory – Continued reliance on non-core funding          9
  • Satisfactory – Non-core funding steadily grown to meet demands                    9
  • Adequate – However, Integrity did not include all volatile funding                       9
    sources in its dependency ratio calculation
  • Tight Liquidity Position – Deterioration in asset quality and weak                              9
    earnings may reduce Integrity’s ability to attract funding on
    reasonable terms
  • Weak – Due to the inability to obtain a sufficient volume of funds on                                   9
    reasonable terms to meet liquidity needs
Funding sources
  • Increasing reliance on non-core funding sources                           9       9      9      9       9
  • Lines of credit established with national banks and/or the FHLB           9              9      9       9
  • Additional collateral required for lines of credit with FHLB                                    9       9
  • Inadequate sources for funding due to the bank’s troubled financial                             9       9
    condition, negative publicity, and potential for a run on deposits
Level of liquidity risk
  • Liquidity risk increasing                                                 9       9      9      9       9
  • Potential liquidity strain for the bank                                                         9       9
  • Net non-core funding dependency ratio increasing                          9       9      9      9       9
  • Non-core funding dependency ratio calculated to show more favorable       9              9              9
    ratio
Examiner recommendations
  • Due to Integrity’s reliance on non-core funding sources, management       9              9
    should establish individual and aggregate risk tolerances for these
    funding sources
  • The Funds Management Policy should include parameters for a                              9              9
    dependency ratio that includes all potentially volatile liabilities, in
    addition to separate parameters for a dependency ratio that includes
    potentially volatile liabilities that mature in less than 1 year
  • Management must continue to reduce dependence on non-core                                               9
    funding to comply with dependency ratio requirements of the C&D
    and the brokered deposit limitation imposed by the brokered deposit
    waiver
Source: ROEs for Integrity.



In response to examiner comments in 2004, Integrity’s management stated that the bank would
continue to utilize non-core liabilities to fund the bank’s asset growth in the event of a
shortfall in core deposit growth. To address the April 2004 examination recommendation to
establish individual and aggregate risk tolerances for non-core funding sources, Integrity
revised its Funds Management Policy, dated January 2005. The revised policy stated that
Integrity would maintain a minimum liquidity ratio of 10 percent, excluding available lines of
credit, and 15 percent including available lines of credit. Furthermore, the policy established a
dependency ratio target of less than 40 percent. The policy stated that Integrity would rely on
cash and cash equivalents to satisfy its routine liquidity needs. However, should the occasion


                                                      18
arise when the bank was unable to meet its liquidity requirements, any combination of the
following actions could be taken, depending on funding availability and market conditions:

       •   advertise for local Money Market Deposit Accounts,
       •   advertise and try to attract local 6-12 month CDs,
       •   advertise and try to attract 6-12 month QuickRate deposits,
       •   obtain FHLB advances,
       •   place 30-90 day repurchase agreements through the Bankers Bank,
       •   purchase federal funds (on established lines),
       •   sell shorter-term investments,
       •   sell short-term loan participations, and
       •   purchase brokered deposits.

Finally, the revised policy stated that non-core funding sources should have an individual
and aggregate limit of 100 percent of core deposits and that the composition of the non-
core funding sources should be determined based on availability, pricing, and the funding
needs of the bank at a given point in time.

By the May 2006 examination, Integrity increased its dependency ratio target to 50
percent. Examiners reported that brokered deposits along with time deposits greater than
$100,000 represented 47 percent of total deposits. Examiners assigned liquidity a 2
rating and recommended again that Integrity establish individual and aggregate limits on
non-core funding. Additionally, examiners noted the 50-percent dependency ratio target
and that Integrity did not define a timeframe used in the calculation. Therefore,
examiners recommended that the policy include parameters for the dependency ratio that
includes all potentially volatile liabilities, in addition to separate parameters for a
dependency ratio that includes potentially volatile liabilities that mature in less than 1
year.


Lack of an Adequate CLP. Integrity did not implement sound liquidity risk
management controls that included a comprehensive Contingency Liquidity Plan (CLP).
According to DSC, Integrity’s new management team was effective in procuring
sufficient liquidity to provide time to market the institution to a variety of investors and
provide DRR with time to complete resolution activities. However, when Integrity’s
liquidity position became severely critical, bank management could not provide sufficient
liquidity for the institution.

According to the Examination Manual, CLPs should be in force and should include
strategies for handling liquidity crises and procedures for addressing cash flow shortfalls
in emergency situations. The manual also states that financial institutions should have
an adequate CLP in place to manage and monitor liquidity risk, ensure that an
appropriate amount of liquid assets is maintained, measure and project funding
requirements during various scenarios, and manage access to funding sources.



                                              19
Integrity developed a CLP and incorporated it into its Funds Management Policy;
however, the CLP was not comprehensive. The June 2007 examination disclosed a
worsening condition for Integrity, with non-core deposits increasing to 54 percent of total
deposits and brokered deposits totaling 24 percent of total deposits. Examiners
downgraded liquidity to a 3 rating. To incorporate more conservative non-core funding
parameters, Integrity’s BOD approved a revised funds management policy on
September 5, 2007. The funds management policy was again updated in January 2008
and contained revisions that further strengthened the bank’s liquidity policy. Integrity’s
new management implemented the guidelines and closely monitored liquidity. However,
new management was not able to obtain sufficient funds on reasonable terms to meet
liquidity needs.

The FDIC issued FIL-59-2003, Use of the Federal Reserve’s Primary Credit Program in
Effective Liquidity Management, dated July 23, 2003, which provides interagency
guidance on the need for financial institutions to develop CLPs, in addition to other
liquidity risk management controls, and informs depository institutions that a
contingency plan should be part of the bank’s liquidity management program. According
to the Examination Manual, a bank’s funds management practices should ensure that
liquidity is not maintained at a high cost or through undue reliance on funding sources
that may not be available in times of financial stress or adverse changes in market
conditions. The Examination Manual also includes 13 suggested elements for inclusion
in a CLP. However, Integrity’s January 2007 CLP did not adequately address these
elements. Integrity’s CLP listed general options to investigate—rather than specific
plans—to monitor risk, maintain liquid assets, measure and project funding requirements
during various scenarios, and manage access to funding sources as suggested in the
Examination Manual. Integrity’s 2008 CLP included 8 of the 13 elements from the
Examination Manual. The five elements not in the CLP were a method of computing
cost of funds, investment strategies, a system of internal controls, tax planning, and
authority/procedures to access wholesale funding sources. We consider the lack of an
adequate CLP be a significant concern, which we will address in our summary reports
covering multiple bank failures.

Integrity’s BOD and previous management had failed to implement adequate controls to
monitor the bank’s liquidity risk. The June 2007 examination identified significant
deterioration in Integrity’s loan portfolio, a high level of adverse classifications,
significant downgrades in loans from the bank’s internal watch list, and an inadequate
ALLL. Although new management was monitoring and planning for Integrity’s
liquidity needs after the 2007 examination, the bank’s financial condition was severely
deteriorating. By the 2008 examination, Integrity’s liquidity position was weak due to
the inability to obtain funds on reasonable terms. As Integrity’s financial position
continued to deteriorate, Integrity’s net interest margin declined, the bank’s earnings and
capital position were adversely affected, and the bank lacked potential sources to address
liquidity shortfalls and resultant crises.




                                              20
Regulatory Supervision Related to Liquidity

      Examiners assessed Integrity’s liquidity position and made recommendations to address
      cash flow and liquidity reports and deviations from, and updates to, the liquidity policy.
      Further, examiners discussed various options for funding sources with Integrity’s new
      management. However, DSC did not assess the adequacy of Integrity’s CLP and take
      supervisory action related to liquidity or take steps to limit the use of volatile funds until
      September 2007, when the FDIC granted the first of three brokered deposit waivers to
      Integrity as listed below in Table 9. Until July 2007, the bank was well capitalized which
      allowed Integrity to accept, renew, and roll over brokered deposits without regulatory
      approval.

         Table 9: Brokered Deposit Waiver Requests Submitted by Integrity
        Application Number         Date Submitted by Integrity     Action Taken and Date
               20072356                      08/21/07            Approved by the FDIC 09/28/07
               20073304                      12/04/07            Approved by the FDIC 12/17/07
               20080512                      03/03/08            Approved by the FDIC 03/18/08
               20081330                      05/29/08            Withdrawn by Integrity 06/06/08
               20081506                      06/11/08            Withdrawn by Integrity 07/17/08
    Source: The ViSION Application Tracking System.



      The FDIC subsequently issued a C&D in February 2008 that included liquidity
      provisions. Before the brokered deposit waivers and C&D were issued, the FDIC and
      Integrity held numerous discussions, during late 2007 and early 2008, regarding actions
      implemented by Integrity’s new management to address examiner concerns, including
      those related to asset quality and liquidity.

      The Examination Manual states that examiners should not wait for the PCA-based
      brokered deposits restrictions to be triggered, or the viability of an institution to be in
      question, before raising relevant safety and soundness issues with regard to the use of
      volatile funding sources. The manual also describes red flags related to the use of such
      funding sources. If examiners determine that the bank’s use of these funding sources is
      not safe and sound, that risks are excessive, or that risks adversely affect the bank’s
      condition, then appropriate supervisory action should be taken immediately.

      Several red flags should have indicated to examiners that Integrity needed to ensure that
      the risks associated with brokered or other rate-sensitive funding sources were managed
      appropriately before the restrictions on the use of brokered deposits were implemented
      based on the C&D. Those red flags included:

           •    ineffective management and the absence of appropriate expertise,
           •    an aggressive growth strategy,
           •    inadequate information systems and controls,
           •    the absence of adequate policy limitations on non-core funding sources,
           •    high delinquency rate or deterioration in other asset quality indicators, and
           •    deterioration in the general financial condition of the institution.

                                                          21
DSC stated that while examinations prior to 2007 made recommendations with respect to
liquidity and funds management, these examinations did not determine that existing
policies, controls, and information systems, as a whole, were inadequate. DSC further
stated that the bank did not report high levels of loan delinquencies or general
deterioration in its financial condition until 2007.

At the March 2008 examination, examiners reviewed Integrity’s corrective actions on the
C&D provisions that required Integrity to review and amend the bank’s liquidity policy.
Examiners determined that Integrity was in partial compliance with the C&D provisions
in that the bank had revised its funds management policy to address the concerns
highlighted in the previous FDIC examination; however, examiners found that the policy
guidelines were not consistent with actual practices. For example, the policy required a
Sheshunoff model 8 for cash flow analysis, which was not employed. Liquidity was
calculated instead on a weekly basis by Integrity’s Chief Financial Officer (CFO).
Additionally, the policy established an Asset/Liability Management Committee, which
had not met since the previous examination. Finally, the policy required an independent
party to test the interest rate risk model annually in March, but such testing had not been
completed. Examiners recommended that the contingency funding plan be expanded to
provide additional sources of liquidity.

The availability of brokered deposits assisted Integrity in its rapid, aggressive growth and
its funding of high-risk ADC loans. DSC approved the first brokered deposit waiver in
September 2007 after Integrity had fallen to an adequately capitalized position for PCA
purposes. DSC’s implementation of PCA provisions is discussed in detail in the next
section of this report. According to DSC, brokered deposit waivers were granted to
Integrity to allow time for Integrity’s new management team to actively pursue a private
market solution. This also provided the Division of Resolutions and Receiverships
(DRR) sufficient marketing time to ensure an orderly resolution of Integrity.

Finally, at the June 2007 examination, examiners did not recommend that the bank
review and revise its CLP to adequately address the 13 plan elements listed in the
Examination Manual—Integrity subsequently developed a more comprehensive CLP in
September 2007 and updated it in January 2008. Prior to September 2007, Integrity had
not developed controls that could have identified the specific circumstances under which
secondary sources of funds should be used and the manner in which those funds would be
used to provide liquidity for the bank.

After Integrity’s failure, DSC issued additional guidance related to liquidity risk and
CLPs. The FDIC’s Liquidity Risk Management guidance, dated August 26, 2008, urged
the BODs for financial institutions to establish a formal CLP that establishes quantitative
liquidity risk guidelines. The guidance also states that CLPs should identify an
institution’s liquidity risk profile and the types of stress events that may be faced
including, but not limited to, a deterioration in asset quality, becoming less than well
capitalized, the need to fund unplanned asset growth, loss of access to market funding
8
 The Sheshunoff model of cash flow analysis is the study of the movement of cash through a bank’s
business cycle. The goal is to maintain sufficient cash for bank operations from month to month.

                                                    22
    sources, and the impact of negative press coverage. The guidance also reiterates many of
    the CLP elements that Integrity’s CLP did not include, as suggested by the Examination
    Manual.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve the problems of insured depository institutions at the
    least possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory supervisory actions that are to be triggered by an institution’s capital levels.
    Part 325 of the FDIC’s Rules and Regulations implements PCA requirements by
    establishing a framework for taking prompt corrective action against insured nonmember
    banks that are not adequately capitalized.

    At each examination, the FDIC evaluated Integrity’s capital position; assigned capital
    component ratings; and later included capital-related provisions in informal and formal
    actions, including a C&D with capital provisions; and provided PCA notification letters.
    The FDIC’s April 2005 examination noted that in order to remain well capitalized given
    its significant growth rate, Integrity had to raise additional capital through the issuance of
    holding company stock, primarily to existing stockholders. In fact, Integrity’s rapid
    growth from 2004 to 2006 was supported by significant stock issuances to raise more
    than $60 million in capital, as shown in Table 10 below.

    Table 10: Integrity Capital Stock Issuances
                                 2004          2005                  2006            2007      2008
                                                           (Dollars in Thousands)
    Common Stock Issued        $20,000       $15,600                $25,000         $3,000     $300
    Cumulative Total           $20,000       $35,600               $60,600          $63,600   $63,900
    Source: UBPR.



    In 2007, Integrity failed to maintain its well capitalized position after adding $34 million,
    which was attributed to one guarantor relationship, to the ALLL. At the June 2007
    examination, Integrity fell to an adequately capitalized position with Tier 1 Total Risk
    Based Capital of 9.68 percent and, following the examination, recorded an additional
    $14 million to the ALLL, which further decreased the Tier 1 Capital ratio; however, the
    institution remained adequately capitalized. On February 11, 2008, the FDIC issued a
    C&D that included provisions related to capital and required Integrity to:

        •   Submit, within 30 days, a capital plan for maintaining a Tier 1 Capital ratio of no
            less than 8 percent and to achieve that ratio within 120 days.

        •   Address how the bank would meet the minimum risk-based capital requirements
            for a well capitalized bank, as well as to have a fully funded ALLL, and develop
            plans to reduce its volatile liability dependency ratio below 20 percent by March
            2008 and below 15 percent by June 2008.


                                                      23
    The bank submitted plans as required in response to the C&D on March 25, 2008. In
    addition, Integrity withdrew applications for brokered deposit waivers submitted in May
    and June 2008 due to the C&D restrictions on brokered deposits. In June and August
    2008, Integrity submitted progress reports, which notified the FDIC that it was not able to
    reduce its volatile dependency ratio below 20 percent as required by the C&D.

    On July 30, 2008, the FDIC notified Integrity that, based on its June 30, 2008 Call Report
    data, the institution was considered to be undercapitalized for PCA purposes. The FDIC
    required Integrity to develop and submit a capital restoration plan (CRP) within 45 days
    of that letter. This requirement was reiterated in the August 12, 2008 PCA letter
    notifying Integrity that it had fallen to significantly undercapitalized. However, Integrity
    had not responded with a CRP as required by the PCA letters by the time the state closed
    the institution on August 29, 2008.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s
    financial health. In addition, the use of PCA directives depends on the accuracy of
    capital ratios in a financial institution’s Call Reports. Integrity’s capital remained in the
    well capitalized to adequately capitalized range long after its operations had begun to
    deteriorate because of problems related to management, asset quality, risk management
    controls, and net losses. Further, by the time Integrity’s capital levels fell below the
    thresholds necessary to implement PCA, the bank’s condition had deteriorated to the
    point at which the institution could not raise additional needed capital or find investors to
    assist in capitalizing the bank.


CORPORATION COMMENTS

    On March 12, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 3 of this report. In its response,
    DSC agreed with the OIG’s conclusions regarding the causes of Integrity’s failure and
    the resulting material loss. DSC noted that facts regarding Integrity’s largest borrowing
    relationship and significant control weaknesses in the loan approval processes did not
    come to light until the 2007 examination. However, in our view, greater concern for
    Integrity’s loan administration and underwriting weaknesses identified in the 2005 and
    2006 examinations could have led to earlier supervisory action regarding Integrity’s
    borrowing relationships.

    Finally, DSC stated that it has undertaken a number of initiatives related to the
    supervision of financial institutions that have high-risk lending activities, including
    concentrations in CRE loans and the use of interest reserves.




                                                   24
                                                                                      APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, the Inspector General of the appropriate federal banking agency
      shall prepare a report to that agency, reviewing the agency’s supervision of the
      institution. The FDI Act requires that the report be completed within 6 months after it
      becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from September 2008 to February 2009 in accordance with
      generally accepted government auditing standards. However, due to the limited scope
      and objectives established for material loss reviews, which are generally applied to just
      one financial institution, it was not feasible to address certain aspects of the standards, as
      discussed further below.


Scope and Methodology

      The scope of this audit included an analysis of Integrity’s operations, from DBF’s 2004
      examination, until the bank’s failure on August 29, 2008. Our review also entailed an
      evaluation of the regulatory supervision of the institution over the same period. For an
      historical perspective of the bank, our review also included data regarding Integrity’s
      asset and loan classifications, ALLL, and loan concentrations from the April 2001
      through May 2003 examinations.

      To achieve the audit objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by FDIC and DBF
                 examiners from 2004 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s ARO and Atlanta Field
                       Office (AFO).

                   •   Reports prepared by DRR relating to the bank’s closure.

                   •   Records of the bank’s external auditors at the offices of Mauldin & Jenkins,
                       in Atlanta, Georgia; and Carr, Riggs & Ingram, in Enterprise, Alabama.




                                                      25
                 •   Records of the bank’s internal auditors at the offices of Porter Keadle
                     Moore, LLP in Atlanta, Georgia; and Crowe Chizek and Company, LLC in
                     Atlanta, Georgia.

                 •   Bank records maintained by DRR in Dallas, Texas.

                 •   Pertinent DSC policies and procedures.

           •   Interviewed or contacted the following FDIC officials:

                 •   DSC management in Washington, D.C., and DSC’s ARO and AFO in
                     Atlanta, Georgia.

                 •   DRR officials at the Dallas Regional Office and in Alpharetta, Georgia.

                 •   FDIC examiners from the DSC AFO who participated in examinations or
                     reviews of examinations of Integrity.

           •   Met with officials from the State of Georgia’s DBF in Atlanta, Georgia, to discuss
               their historical perspective of the institution, its examinations, state banking laws,
               and other activities regarding the states supervision of the bank.

           •   Researched various banking laws and regulations, including State of Georgia
               banking laws.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of Integrity’s
      management controls pertaining to its operations as discussed in the finding section of
      this report. For purposes of the audit, we did not rely on computer-processed data to
      support our significant findings or conclusions. Our review centered on interviews,
      ROEs, and correspondence and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, manage and measure results to
      justify appropriations and authorizations, and design budgets that reflect strategic
      missions. For this material loss review, we did not assess the strengths and weaknesses
      of DSC’s annual performance plan in meeting the requirements of the Results Act
      because such an assessment was not part of the audit objectives. DSC’s compliance with
      the Results Act is reviewed in OIG program audits of DSC operations.




                                                      26
Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act. Additionally, we assessed the
risk of fraud and abuse related to our objectives in the course of evaluating audit
evidence.




                                            27
                                                                               APPENDIX 2
                             GLOSSARY OF TERMS


          TERM                                             DEFINITION
Adversely Classified       Assets subject to criticism and/or comment in an ROE. Adversely classified
Assets                     assets are allocated on the basis of risk (lowest to highest) to three
                           categories:
                           •   Substandard,
                           •   Doubtful, and
                           •   Loss.

Allowance for Loan and     Federally insured depository institutions must maintain an ALLL level that
Lease Losses (ALLL)        is adequate to absorb the estimated loan losses associated with the loan and
                           lease portfolio (including all binding commitments to lend). To the extent
                           not provided for in a separate liability account, the ALLL should also be
                           sufficient to absorb estimated loan losses associated with off-balance sheet
                           loan instruments such as standby letters of loan.

Concentration              A concentration is a significantly large volume of economically related
                           assets that an institution has advanced or committed to a certain industry,
                           person, entity, or affiliated group. These assets may, in the aggregate,
                           present a substantial risk to the safety and soundness of the institution.

Prompt Corrective Action   The purpose of PCA is to resolve the problems of insured depository
(PCA)                      institutions at the least possible long-term cost to the DIF. Part 325 of the
                           FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                           325.101, et. seq., implements section 38, Prompt Corrective Action, of the
                           FDI Act, 12 United States Code section 1831(o), by establishing a
                           framework for taking prompt supervisory actions against insured
                           nonmember banks that are less than adequately capitalized. The following
                           terms are used to describe capital adequacy: Well Capitalized, Adequately
                           Capitalized, Undercapitalized, Significantly Undercapitalized, and Critically
                           Undercapitalized.

Uniform Bank               The UBPR is an individual analysis of a financial institution’s financial data
Performance Report         and ratios that includes extensive comparisons to peer group performance.
(UBPR)                     The report is produced by the Federal Financial Institutions Examination
                           Council for the use of banking supervisors, bankers, and the general public
                           and is produced quarterly from Call Report data submitted by banks.




                                           28
                       APPENDIX 3

CORPORATION COMMENTS




         29
30
31
                                                                   APPENDIX 4
                     ACRONYMS IN THE REPORT


Acronym                                Definition
ADC       Acquisition, Development, and Construction
AFO       Atlanta Field Office
ALLL      Allowance for Loan and Lease Losses
ARO       Atlanta Regional Office
BOD       Board of Directors
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CD        Certificate of Deposit
C&D       Cease and Desist Order
CFO       Chief Financial Officer
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
CRP       Capital Restoration Plan
DBF       Department of Banking and Finance
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
MLR       Material Loss Review
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                     32
